ta
I

C@OCKLE

. E-Mail Address:
Le ga 1 Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-670
ARNOLD FLECK,
Petitioner,
Vv.

JOE WETCH; AUBREY FIEBELKORN-ZUGER;
TONY WEILER; and PENNY MILLER,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR
REHEARING in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 1517 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of April, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

” &y GENERAL ROTARY-State of Mobraska
A RENEE J. GOSS Kense 9. Leon Qudraw A Chk
My Comm: Exp. September 5, 2023

a
4 Notary Public Affiant 3971F

 

   
